Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    INTRAVENOUS IMMUNE 

    GLOBULIN: MEDICARE 

  PAYMENT AND AVAILABILITY





                    Daniel R. Levinson

                     Inspector General 


                       April 2007

                     OEI-03-05-00404

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                    S U M M A R Y                                                



                  OBJECTIVE
                  1.	 To determine whether hospitals and physicians could purchase
                      intravenous immune globulin (IVIG) at prices below the Medicare
                      payment amounts in 2005 and 2006.

                  2.	 To determine whether IVIG was readily available to physicians and
                      distributors in 2005 and 2006.


                  BACKGROUND
                  Members of the congressional subcommittees on Health within the
                  Energy and Commerce and Ways and Means Committees requested
                  that the Office of Inspector General (OIG) examine the current state of
                  pricing and supply of IVIG. IVIG is a collection of antibodies derived
                  from blood plasma fractionation and administered by infusion to
                  patients with poorly functioning immune systems. Preliminary claims
                  data indicate that Medicare and its beneficiaries paid approximately
                  $74 million for IVIG administered in physicians’ offices and home
                  settings in 2006. Medicare paid an additional $130 million for IVIG
                  administered in hospital outpatient settings based on claims processed
                  from January through October 2006.

                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 changed the payment basis for most Part B prescription drugs,
                  including IVIG, from the average wholesale price (AWP) to the average
                  sales price (ASP) for physicians in 2005 and for hospitals in 2006. As a
                  result, physician payment amounts fell 14 percent for powder and liquid
                  IVIG between the fourth quarter of 2004 (the last quarter of AWP-based
                  physician payments) and first quarter of 2005 (the first quarter of
                  ASP-based physician payments). The Medicare payment amounts to
                  hospitals fell 45 percent for powder IVIG and 30 percent for liquid IVIG
                  between the fourth quarter of 2005 (the last quarter of AWP-based
                  hospital payments) and first quarter of 2006.

                  The Centers for Medicare & Medicaid Services (CMS) established a
                  temporary preadministration-related service payment (for both
                  hospitals and physicians’ offices) of approximately $70 per day of
                  infusion during 2006 in response to concerns about beneficiary access
                  and Medicare payment for IVIG. CMS recently stated that it would
                  continue the add-on payment throughout 2007. In addition to the
                  temporary add-on payment, the ASP-based Medicare payment during


OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   i
E X E C U T I V E                       S U           M M A R Y


                   the fourth quarter of 2006 was 17 percent higher for powder IVIG and
                   8 percent higher for liquid IVIG than it was at the close of 2005.

                   We conducted a review to examine IVIG availability and Medicare
                   payment from the perspectives of: (1) manufacturers of IVIG,
                   (2) distributors and group purchasing organizations (GPO) identified by
                   the manufacturers as involved in the sale and distribution of IVIG, and
                   (3) randomly selected physicians who billed Medicare for IVIG.

                   It is important to note that IVIG is a unique pharmaceutical product
                   that presents payment and cost-related issues that may not be typical of
                   other Part B-covered drugs (such as oral anticancer drugs and
                   immunosuppressive drugs, drugs used in conjunction with durable
                   medical equipment, and some vaccines). IVIG is a blood plasma
                   derivative; the amount produced is dependent upon plasma collection
                   and there is a finite amount of raw material. Therefore, the results of
                   this review are applicable only to IVIG.


                   FINDINGS
                   In the third quarter of 2006, just over half of IVIG sales to hospitals
                   and physicians were at prices below Medicare payment amounts,
                   which represents a substantial increase over the previous three
                   quarters. During the third quarter of 2006, 56 percent of IVIG sales to
                   hospitals and 59 percent of IVIG sales to physicians by the three largest
                   distributors occurred at prices below the Medicare payment amounts.
                   This represents a dramatic shift from the previous three quarters, when
                   the percentage of IVIG sold at prices below the Medicare payment
                   amounts was as low as 23 percent for hospitals and 4 percent for
                   physicians.

                   The substantial increase in sales below the Medicare payment amounts
                   appears to be the result of manufacturer price increases in January
                   2006 that were not reflected in increased Medicare payments until the
                   third quarter of 2006.
                   Most physicians and distributors reported problems with IVIG
                   availability in 2005 and the first quarter of 2006. The majority
                   (57 percent) of responding physicians reported that they were unable to
                   provide patients with adequate amounts of IVIG during the first
                   quarter of 2006. In addition, distributors responding to our survey also
                   reported problems with IVIG availability in 2005. According to their
                   responses, none of the distributors were able to fulfill all customer
                   requests for IVIG, and all responding distributors have asked

 OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   ii
E X E C U T I V E                       S U           M M A R Y


                   manufacturers for additional product. These respondents stated that
                   problems with availability are typically related to Medicare payment.


                   CONCLUSION
                   Based on the data presented in this report, just over half of IVIG sales
                   to hospitals and physicians were at prices below the Medicare payment
                   amounts in the third quarter of 2006, a substantial increase over
                   previous quarters. Distributors and physicians also reported problems
                   with IVIG availability.

                   The interaction of manufacturer pricing decisions and certain
                   ASP-related issues could partially explain our findings regarding IVIG
                   pricing and availability. Because manufacturer price increases for IVIG
                   in early 2006 were not reflected in Medicare reimbursement until the
                   middle of that year, hospitals and physicians were initially charged
                   more for IVIG without a corresponding increase in payment. If
                   manufacturers were to implement another across-the-board price
                   increase, hospitals and physicians might face issues similar to those
                   that they faced in the first two quarters of 2006.

                   It is important to note that additional factors, including off-label use,
                   coding, and plasma industry economics, may drive the difficulties with
                   IVIG pricing and availability. Reported recent increases in the use of
                   IVIG for off-label indications may strain the tight supply of this product.
                   Each IVIG product is a unique brand drug, yet Medicare payment is
                   based on a weighted average price of all products. The production of
                   IVIG requires substantial resources not typically associated with other
                   pharmaceutical products. However, this review did not include an
                   in-depth examination of these factors.


                   AGENCY COMMENTS
                   CMS commented that this report provides initial information on the
                   availability and pricing for IVIG and sets the stage for further review of
                   certain issues (e.g., off-label use, payment lags, and distributor
                   markups) that can bring greater understanding of how the marketplace
                   operates for this unique product. CMS also noted that the time lag is a
                   feature of the ASP system and applies to all Part B drugs and
                   biologicals. CMS stated that the substantial increase in the percentage
                   of IVIG sold to hospitals and physicians at prices below the Medicare
                   payment amounts is an important development and noted that these
                   findings indicate that Medicare payment has adjusted to increases in

 OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   iii
E X E C U T I V E                       S U           M M A R Y


                   IVIG market prices over time. CMS stated, “We will carefully consider
                   this report as we continue our dialogue with manufacturers, patient
                   groups, and stakeholders to better understand marketplace
                   developments and issues impacting beneficiary access to quality care.
                   We strongly encourage the OIG to further study some of the issues
                   raised [in CMS’s comments to the draft report].”




 OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   iv
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 9 

                   Increase in IVIG sales at prices below Medicare payment . . . . . . . 9 


                   Physicians and distributors report problems with availability . . . 12 



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   A: Detailed Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . 17 


                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

Δ   I N T R O D U C T I O N                                                    



                  OBJECTIVE
                  1.	 To determine whether hospitals and physicians could purchase
                      intravenous immune globulin (IVIG) at prices below the Medicare
                      payment amounts in 2005 and 2006.

                  2.	 To determine whether IVIG was readily available to physicians and
                      distributors in 2005 and 2006.


                  BACKGROUND
                  Sections 1847A (d) (1) and (2) of the Social Security Act (the Act), as
                  added by the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (MMA) (Public Law 108-173), directs the
                  Office of Inspector General (OIG) to undertake pricing studies and
                  compare average sales prices (ASPs) with widely available market
                  prices. Related to these provisions, members of the congressional
                  subcommittees on Health within the Energy and Commerce and Ways
                  and Means committees requested that OIG determine the current
                  market prices for IVIG and investigate the current state of IVIG pricing
                  and supply. We previously provided the congressional requestors with
                  the results of our work.
                  Intravenous Immune Globulin
                  Patients with poorly functioning immune systems receive IVIG
                  infusions to temporarily replace missing antibodies, thus helping to
                  protect them against infectious agents that cause various diseases.
                  IVIG is produced in both powder and liquid form through fractionation
                  of human blood plasma. Fractionation is the process whereby plasma
                  proteins are separated in a purified and concentrated form. Each IVIG
                  product has a distinct brand name.

                  The Food and Drug Administration (FDA) has approved IVIG to treat
                  several conditions. One condition is primary immune deficiency
                  disease, a group of disorders in which the immune system fails to
                  produce enough antibodies, thereby predisposing individuals to
                  increased risk of infection. Additional FDA-approved indications for
                  IVIG use are acute and chronic idiopathic thrombocytopenia purpura,
                  B-cell chronic lymphocytic leukemia, Kawasaki syndrome, pediatric




OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   1
I N T R O D        U C T             I O N


                    human immunodeficiency virus, and bone marrow transplantation.1
                    Some providers have reported that the majority of their IVIG use is for
                    off-label (non-FDA-approved) indications (e.g., multiple sclerosis,
                    rheumatoid arthritis, infections in low-birth-weight newborns).
                    Off-label use may have increased, contributing to rising demand.2
                    IVIG is a unique pharmaceutical product; as a blood plasma derivative,
                    the amount produced is dependent upon plasma collection. Production
                    increases require substantial time and resources not generally
                    associated with other drug products.
                    Sources of IVIG
                    Physicians, hospitals, and other providers purchase IVIG through
                    distributors, group purchasing organizations (GPO), and directly from
                    manufacturers.

                    Manufacturers establish relationships with distributors to sell IVIG to
                    providers. Distributors purchase IVIG from manufacturers and then
                    independently resell IVIG to providers or work in conjunction with
                    GPOs to provide IVIG to GPO members.

                    GPOs generally provide their members with access to lower-cost
                    products by negotiating prices for specific drugs from manufacturers.
                    GPOs do not purchase drugs themselves; rather, they enter into group
                    purchasing contracts with manufacturers on behalf of their members.
                    The contracts prescribe the prices, conditions, and terms under which
                    GPO members can purchase drug products. GPO members then
                    purchase drugs from distributors or manufacturers at the price specified
                    in the GPO contracts. Distributors do not determine GPO contract
                    prices; they only provide drugs to GPO members at the contract prices.
                    Medicare Payment for IVIG
                    According to Medicare claims data, Part B and its beneficiaries paid
                    approximately $74 million for IVIG administered in physicians’ offices
                    and patients’ homes in 2006.3 Medicare paid an additional $130 million




                      1 Department of Health and Human Services Advisory Committee on Blood Safety and
                    Availability, “Status of Immune Globulin Intravenous (IVIG) Products.” Available online at
                    http://www.hhs.gov/bloodsafety/igiv.html. Accessed April 24, 2006.
                        2 Ibid.
                        3 Medicare Part B Extract and Summary System, updated through December 2006
                    (90 percent of claims reported), accessed March 26, 2007.



 OEI-03-05-00404    I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   2
I N T R O D        U C T             I O N


                    for IVIG administered in hospital outpatient settings from January
                    through October 2006.4
                    The MMA changed the basis of physician payment for most Medicare
                    Part B prescription drugs, including IVIG, to ASP, effective
                    January 1, 2005. 5 There is a two-quarter lag between the time
                    manufacturers report ASPs to CMS and the time those prices become
                    the basis for Medicare payment. For example, first-quarter 2006 ASP
                    submissions from manufacturers served as the basis for third-quarter
                    2006 Medicare payment for most covered drugs. Prior to 2005,
                    Medicare generally used the average wholesale price (AWP) as the basis
                    for Part B payment for prescription drugs. Numerous reports by OIG
                    and the Government Accountability Office found that the AWP is often
                    significantly higher for Part B drugs than the prices that drug
                    manufacturers, wholesalers, and similar entities actually charge the
                    physicians who purchase these drugs.

                    Medicare continued to use AWPs to pay hospitals for outpatient drugs
                    in 2005. However, since January 1, 2006, Medicare payment for most
                    drugs and biologicals, including IVIG, administered in hospital
                    outpatient departments has been based on 106 percent of the
                    manufacturer’s ASP, an amount identical to the physician payment
                    amount.6
                    A previous OIG review examined the adequacy of Medicare’s new
                    payment methodology among certain specialties (hematology,
                    hematology/oncology, and medical oncology). This review determined
                    that physician practices in these specialties could generally purchase
                    drugs, including IVIG, at less than the MMA-established payment




                        4 This figure is based on hospital claims processed from January through October 27,
                    2006. This figure includes Medicare and beneficiary payments.
                        5 Pursuant to section 1847A (c) of the Act, the ASP is defined as a manufacturer’s sales of
                    a drug to all purchasers in the United States (with certain exceptions) in a calendar quarter
                    divided by the total number of units of the drug sold by the manufacturer in that same
                    quarter. The ASP is net of any price concessions, such as volume, prompt pay, and cash
                    discounts; free goods contingent on purchase requirements; chargebacks; and rebates other
                    than those obtained through the Medicaid drug rebate program.
                        6 “Medicare Announces Payment Rates and Policy Changes for Hospital Outpatient
                    Services in 2006.” Available online at
                    http://www.cms.hhs.gov/apps/media/press/release.asp?Counter=1711. Accessed
                    April 24, 2006.



 OEI-03-05-00404    I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   3
I N T R O D        U C T             I O N


                    rates.7 An additional review conducted by the Medicare Payment
                    Advisory Commission similarly found that oncologists could purchase
                    most drugs at prices below Medicare’s payment amount.8
                    Concerns Over Medicare Payment and Product Availability
                    Medicare payment for IVIG. After the MMA changed the basis of
                    physician drug payment from AWPs to ASPs, patient advocacy groups
                    and physicians expressed concerns over Medicare’s reduced payment
                    amount for IVIG.9 Their concerns centered on the claim that, under the
                    new payment methodology, the cost for physicians to acquire IVIG
                    would exceed Medicare’s payment amount. As a result of changes to
                    Medicare’s payment methodology, the physician payment amounts fell
                    14 percent for powder and liquid IVIG between the fourth quarter of
                    2004 (the last quarter of AWP-based physician payments) and the first
                    quarter of 2005 (the first quarter of ASP-based physician payments).10
                    In addition, manufacturers expressed concern over the fact that the
                    codes used for Medicare payment are based on a weighted average of all
                    liquid or all powder IVIG products.

                    Similarly, hospital payments also decreased as a result of the shift to
                    ASPs in January 2006. The Medicare payment amounts to hospitals fell
                    45 percent for powder IVIG and 30 percent for liquid IVIG between the
                    fourth quarter of 2005 (the last quarter of AWP-based hospital
                    payments) and the first quarter of 2006.

                    IVIG availability. In addition to issues with pricing, it has been reported
                    in the media that there is an inadequate supply of IVIG.11 FDA’s
                    Center for Biologics Evaluation and Research, which has procedures for
                    determining and reporting a shortage, indicates on its Web site that
                    “along with other HHS [Department of Health and Human Services]
                    agencies, the FDA has received reports from stakeholders, patients, and
                    health care providers regarding difficulty in obtaining [IVIG] products.


                      7 “Adequacy of Medicare Part B Drug Reimbursement to Physician Practices for the
                    Treatment of Cancer Patients.” Department of Health and Human Services, OIG
                    (A-06-05-00024). September 2005.
                      8 “Effects of Medicare Payment Changes on Oncology Services.” Medicare Payment
                    Advisory Commission. January 2006.
                        9 “Law Impedes Flow of Immunity in a Vial.” New York Times. July 19, 2005.
                        10 The Medicare physician payment amounts were identical for powder and liquid IVIG
                    in the fourth quarter of 2004 as well as in the first quarter of 2005.
                      11 “Law Impedes Flow of Immunity in a Vial.” New York Times. July 19, 2005. “IVIG
                    Shortage Driving Patients to Hospitals.” Drug Topics. August 22, 2005.



 OEI-03-05-00404    I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   4
I N T R O D        U C T             I O N


                    From discussions with manufacturers, distributors, providers, and
                    consumers, it is clear that availability and treatment patterns have
                    shifted; but we did not find clear evidence that there is currently a
                    shortage. This is a multi-faceted and fluid situation.”12 Further, HHS
                    officials have told Congress that, among other factors, because IVIG is
                    derived from human plasma, it takes significant startup time to
                    increase supply, and supply has historically been cyclical.13
                    This is not the first time patient advocacy groups and physicians have
                    expressed concern over IVIG availability. According to a media report,
                    as well as an OIG interview with a manufacturer, there was a shortage
                    of IVIG in the late 1990s after two companies halted production in their
                    factories to make changes in order to meet new quality standards.14
                    When the factories came back online, production increased, leading to
                    excess product and reduced prices. At that time, three manufacturers
                    left the business. Other issues with IVIG availability surfaced in 2003
                    when one manufacturer, while staying in business, reportedly closed
                    dozens of plasma collection centers.15
                    Recent Increases in Medicare Payment for IVIG
                    In response to concerns about beneficiary access to IVIG and Medicare
                    payment, CMS established a temporary preadministration-related
                    service payment (for both hospitals and physician offices) of
                    approximately $70 per day of infusion during calendar year 2006. This
                    additional payment covers the preadministration-related services
                    required to locate and acquire adequate IVIG product and prepare for
                    an infusion of IVIG.
                    In a press release dated November 2, 2005, CMS stated “that the
                    pricing for IVIG is accurate, and that there is no overall product
                    shortage. However, in the face of such factors as increasing IVIG
                    demand . . . physician office staff has to expend extra resources on
                    locating and obtaining appropriate IVIG products and scheduling
                    patient infusions.” CMS went on to state that “for calendar year 2006


                      12 “Biological Product Shortages.” Available online at
                    http://www.fda.gov/cber/shortage/shortage.htm. Accessed February 6, 2007.
                      13 Testimony of Herb B. Kuhn, CMS, before the Subcommittee on Health of the House
                    Committee on Ways and Means, July 13, 2006. Available online at
                    http://waysandmeans.house.gov/hearings.asp?formmode=view&id=5108. Accessed
                    November 28, 2006.
                        14 “Law Impedes Flow of Immunity in a Vial.” New York Times. July 19, 2005.
                        15 Ibid.




 OEI-03-05-00404    I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   5
I N T R O D        U C T             I O N


                    only, physicians and hospitals will be permitted to bill this add-on code
                    to compensate for the administrative burdens associated with IVIG
                    administration during this time of some volatility in IVIG product
                    availability.” 16 CMS recently stated that it will maintain the add-on
                    payment for IVIG in 2007 to help ensure appropriate patient access to
                    IVIG.17
                    In addition to the temporary add-on payment, the Medicare payment
                    amounts for IVIG rose in 2006. The ASP-based payment during the
                    fourth quarter of 2006 was 17 percent higher for powder IVIG and
                    8 percent higher for liquid IVIG than it was at the close of 2005.18


                    SCOPE AND METHODOLOGY
                    Scope
                    We conducted this review to examine the pricing and availability of
                    IVIG from the perspectives of: (1) manufacturers of IVIG,
                    (2) distributors and GPOs identified by the manufacturers as involved
                    in the sale and distribution of IVIG, and (3) randomly selected
                    physicians who billed Medicare for IVIG.

                    IVIG is a unique pharmaceutical product that presents payment-related
                    issues that may not be typical of other Part B-covered drugs.19 IVIG is a
                    blood plasma derivative; the amount produced is dependent upon
                    plasma collection and there is a finite amount of raw material.
                    Therefore, the results of this review are applicable only to IVIG. This
                    review did not examine the availability of or Medicare payment for any
                    other drug products.




                        16 The full text of the press release is located on CMS’s Web site:
                    http://new.cms.hhs.gov/apps/media/press/release.asp?Counter=1709. Accessed
                    February 9, 2006.
                        17 Final Rule, 71 Federal Register 69624, 69679 (December 1, 2006).
                        18 In the fourth quarter of 2005, the Medicare physician payment amounts were $43.10
                    per gram of powder IVIG and $56.30 per gram of liquid IVIG. For the same quarter, the
                    Medicare hospital payment amounts were $80.68 per gram of liquid and powder IVIG. In
                    the fourth quarter of 2006, the Medicare payment amounts were $50.53 per gram of powder
                    IVIG and $60.65 per gram of liquid IVIG.
                        19 Medicare Part B covers only a limited number of outpatient prescription drugs.
                    Covered drugs include injectable drugs administered by a physician; certain
                    self-administered drugs, such as oral anticancer drugs and immunosuppressive drugs;
                    drugs used in conjunction with durable medical equipment; and some vaccines.



 OEI-03-05-00404    I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   6
I N T R O D        U C T             I O N


                    Methodology: Data Sources and Sample
                    Manufacturers. We collected 2005 sales prices, sales volume, and
                    production volume from the five IVIG manufacturers producing IVIG at
                    the time of the review (December 2005). These manufacturers also
                    completed a written survey on IVIG pricing and availability.

                    Distributors. From August to October 2006, we collected sales and
                    pricing data from the three largest distributors for the first three
                    quarters of 2006 to gather IVIG sales prices to hospitals and
                    physicians.20 In addition, between January and April 2006, we collected
                    sales prices and sales volume for 2005 from 13 distributors (including
                    the 3 largest distributors) identified by IVIG manufacturers.21
                    Physicians. In April 2006, we sent written surveys on pricing and
                    availability to 255 randomly selected physicians who billed Medicare for
                    IVIG. We asked the physicians how much they paid for IVIG during the
                    first quarter of CY 2006, taking into account discounts and rebates. We
                    also asked them to submit invoices to document all IVIG purchases.
                    Between May and August 2006, 157 physicians (62 percent) responded
                    to our written survey and 100 physicians (39 percent) provided their
                    purchase volume and acquisition costs for IVIG.
                    Data Analysis: Pricing and Sales Data From 2006
                    Distributors. We examined 2006 sales and pricing data from the three
                    largest IVIG distributors for the first three quarters of 2006. We
                    calculated the percentage of IVIG sales to hospitals and physicians at
                    prices above and below the Medicare payment amounts for the first
                    three quarters of 2006.

                    Physicians. Based on the information provided by responding
                    physicians, we calculated the percentage of IVIG purchased at prices
                    above and below the first-quarter 2006 Medicare physician payment
                    amounts. We also determined the percentage of IVIG purchased by
                    physicians that was subject to discounts and rebates and examined
                    physician responses to our written survey.




                        20 Based on data obtained from all distributors, OIG determined that the three largest

                    IVIG distributors accounted for approximately 90 percent of distributor-reported sales in
                    the fourth quarter of 2005.
                       21 The sales volume and pricing data presented were provided by distributors and
                    include IVIG sales and prices to GPO and non-GPO members.



 OEI-03-05-00404    I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   7
I N T R O D        U C T             I O N


                    Pricing and Sales Data From 2005
                    Manufacturers. Based on the information provided by the five
                    manufacturers, we identified the amount of IVIG sold in 2005 to each
                    type of customer. In addition, we analyzed manufacturer responses to
                    the written survey on pricing and availability.

                    Distributors and group purchasing organizations. For the 13 distributors
                    that provided pricing and sales data, we identified the amount of IVIG
                    sold in the fourth quarter of 2005 to each type of customer and at
                    contract and noncontract prices. For sales to hospitals, we determined
                    the percentage of IVIG sold at prices above and below both the Medicare
                    outpatient hospital payment amount and the Medicare physician
                    payment amount for the fourth quarter of 2005 (the new hospital
                    reimbursement amount for the following quarter). For physicians, sales
                    prices were compared to the fourth-quarter 2005 physician payment
                    amounts only. We calculated the percentage of sales to hospitals and
                    physicians at contract and noncontract prices.22 We also examined
                    distributor and GPO responses to the written survey on pricing and
                    availability. See Appendix A for a detailed description of our
                    methodology.
                    Limitations
                    The findings presented are based only on self-reported data received
                    from manufacturers, distributors, GPOs, and physicians. We did not
                    verify the data or invoices that we received from manufacturers,
                    distributors, GPOs, or physicians. In addition, this analysis applies
                    only to responding physicians from our sample; we were unable to make
                    projections to the universe of all physicians who billed Medicare for
                    IVIG because of the response rate.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President=s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                        22 For the purposes of this review, IVIG sales to GPO members by distributors at the
                    contract prices are considered “contract” sales. The independent resale of IVIG by
                    distributors to providers is considered a “noncontract” sale. Distributors typically mark up
                    manufacturer sales prices prior to reselling noncontract IVIG directly to customers.



 OEI-03-05-00404    I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   8
 Δ             F I N D I N G S 


                                                                          During the third quarter of 2006,
In the third quarter of 2006, just over half of IVIG
                                                                          56 percent of IVIG sales to hospitals
sales to hospitals and physicians were at prices                          and 59 percent of IVIG sales to
        below Medicare payment amounts, which                             physicians by the three largest
       represents a substantial increase over the                         distributors occurred at prices below
                          previous three quarters                         the Medicare payment amounts.23
                                                                          This represents a dramatic shift
                                     from the previous three quarters, when the percentage of IVIG sold at
                                     prices below the Medicare payment amounts was as low as 23 percent
                                     for hospitals and 4 percent for physicians. As Tables 1 and 2 illustrate,
                                     the percentage of IVIG sold at prices at least 10 percent above the
                                     Medicare reimbursement amount declined substantially in the third
                                     quarter of 2006 as well.

    Table 1. Distributor Sales to Hospitals From Fourth Quarter of 2005 to Third Quarter of 2006
                                                                                        th                            st                            nd          rd
                                                                                      4 Quarter                   1 Quarter                         2 Quarter   3 Quarter
   IVIG Price Range                                                                       2005                        2006                              2006        2006
   Below Medicare payment                                                                37.3%                       25.5%                             22.8%       56.0%
   0.01%–5.00% greater than Medicare payment                                             51.2%                       30.7%                             31.4%        6.1%
   5.01%–10.00% greater than Medicare payment                                             2.7%                       11.5%                              9.6%       33.6%
   10.01%–20.00% greater than Medicare payment                                            6.5%                        5.1%                              5.2%        3.2%
   20.01%–25.00% greater than Medicare payment                                            0.4%                       25.1%                             29.7%        0.7%
   More than 25.01% greater than Medicare payment                                         1.9%                        2.1%                              1.4%        0.5%
 Source: IVIG pricing and sales data from the three largest distributors.
 Note: Totals may not add because of rounding.



   Table 2. Distributor Sales to Physicians From Fourth Quarter of 2005 to Third Quarter of 2006
                                                                                             th                        st                            nd         rd
                                                                                        4 Quarter                     1 Quarter                     2 Quarter   3 Quarter
  IVIG Price Range                                                                          2005                          2006                          2006*       2006
  At or below Medicare payment*                                                            33.0%                         10.5%                          3.5%       58.6%
  0.01%–5.00% greater than Medicare payment                                                48.5%                         44.4%                         53.9%        8.3%
  5.01%–10.00% greater than Medicare payment                                                0.1%                          7.0%                          0.9%       14.0%
  10.01%–20.00% greater than Medicare payment                                              11.0%                         11.6%                         18.8%       15.8%
  20.01%–25.00% greater than Medicare payment                                               1.2%                         18.0%                         15.4%        2.4%
  More than 25.01% greater than Medicare payment                                            6.3%                          8.4%                          7.6%        1.0%
Source: IVIG pricing and sales data from the three largest distributors. 

Note: Totals may not add because of rounding. 

*Less than 1 percent of sales to physicians during this quarter were at the same price as the Medicare payment amount. 




                                         23 The three largest IVIG distributors accounted for approximately 90 percent of
                                     distributor-reported sales in the fourth quarter of 2005, including 97 percent of sales to
                                     hospitals and 66 percent of sales to physicians. Because these distributors account for
                                     almost all hospital purchases, these data are representative of hospital costs. Most sales by
                                     these distributors were to GPO members at contract prices. Virtually no IVIG sold by the
                                     remaining 10 distributors was subject to GPO contracts. However, 34 percent of physician
                                     purchases came from smaller distributors at noncontract prices, and the percentages in
                                     Table 2 may overestimate actual amounts of IVIG sales below Medicare payment amounts.



         OEI-03-05-00404             I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y                     9
     F   I N D I N G                S


                                   Purchase prices and invoices supplied by responding physicians for the
                                   first quarter of 2006 corroborate the distributor data presented in
                                   Table 2. The pricing data illustrate that approximately 10 percent of
                                   physician purchases (after subtracting discounts and rebates) were
                                   made at prices below the Medicare physician payment amounts in the
                                   first quarter of 2006.24
                                   The substantial increase in sales below the Medicare payment amounts
                                   appears to be the result of manufacturer price increases in January 2006
                                   that were not reflected in increased Medicare payments until the third
                                   quarter of 2006
                                   According to data provided by manufacturers, all planned to increase
                                   IVIG prices at the beginning of 2006. The data provided by distributors
                                   indicate that these price increases were then passed on to customers.
                                   However, Medicare payment amounts in the first two quarters of 2006
                                   were still based on older sales prices from 2005. Therefore, even though
                                   hospitals and physicians had to pay more for IVIG in early 2006, their
                                   Medicare payment did not increase at the same time. It appears that
                                   payment amounts for IVIG started to “catch up” with actual sales prices
                                   during the third quarter of 2006, and this is reflected in the increase in
                                   the percentage of sales at prices below the Medicare payment amounts
                                   shown in Tables 1 and 2. Table 3 below illustrates that Medicare
                                   payment amounts for IVIG have risen over the last four quarters. The
                                   largest increase in Medicare payments occurred between the second and
                                   third quarters of 2006, reflecting manufacturer price increases from two
                                   quarters prior.

  Table 3. Medicare Payment for IVIG From the Fourth Quarter of 2005 to the Third Quarter of 2006


                                                             4 Quarter 200525
                                                               th                                   st                               nd              rd
  IVIG Form                                                                                       1 Quarter 2006                   2 Quarter 2006   3 Quarter 2006
  Liquid IVIG (1 gram)                                                 $56.30                            $56.72                           $58.18           $60.23
  Powder IVIG (1 gram)                                                 $43.10                            $44.44                           $44.52           $49.80
Source: CMS 2005 and 2006 ASP drug pricing files.




                                       24 Approximately 90 percent of physician-reported purchases were at prices above the
                                   Medicare payment amount in the first quarter of 2006. In addition, 133 of 157 responding
                                   physicians (85 percent) reported that they could not purchase either liquid or powder IVIG
                                   at a price below the Medicare payment amount for that quarter.
                                     25 These are the Medicare physician payment amounts for the fourth quarter of 2005.
                                   The Medicare hospital payment amount for this quarter was $80.68 per gram.



         OEI-03-05-00404           I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y               10
F   I N D I N G        S


                      In the fourth quarter of 2005, IVIG obtained by hospitals and physicians
                      through GPO contracts was more likely to be sold at prices below the
                      Medicare payment amounts than IVIG not obtained through GPO contracts.
                      Physicians are less likely than hospitals to obtain IVIG through GPO
                      contracts. Most distributor sales to hospitals (87 percent) were at
                      contract prices in the fourth quarter of 2005; however, a much smaller
                      portion of distributor sales to physicians (44 percent) were at contract
                      prices during the same quarter.26
                      According to sales data collected from 13 distributors (including the
                      3 largest IVIG distributors), 39 percent of contract sales were at prices
                      below the Medicare payment amounts during the fourth quarter of 2005
                      (see Table 4 on the next page). In contrast, only 2 percent of
                      noncontract IVIG was sold at prices below the Medicare physician
                      payment amounts during the same quarter. Furthermore, almost
                      one-third of noncontract sales exceeded Medicare payment amounts by
                      at least 20 percent. Less than 1 percent of contract sales exceeded the
                      Medicare payment amounts by that amount.

                      Noncontract prices may be higher than contract prices because they are
                      subject to additional distributor markups.27 Distributors typically mark
                      up manufacturer sales prices prior to reselling IVIG to customers, such
                      as physicians or hospitals. Distributor markups have a greater effect on
                      noncontract prices because contract prices are set, prenegotiated prices
                      between the GPO and manufacturers. Distributors do not determine
                      these prices, and any markup is limited by the terms of the contracts.
                      The markup limitations do not typically apply to IVIG sold outside of a
                      GPO contract, although some manufacturers place limits on distributor
                      markups. In the fourth quarter of 2005, distributor markups for
                      noncontract sales ranged from 5 to 49 percent.




                         26 For the purposes of this review, IVIG sales to GPO members at the contract prices by
                      distributors are considered “contract” sales. Not all sales by distributors are subject to GPO
                      contracts. In contrast to the contract sales, sales of IVIG by distributors to providers are
                      considered “noncontract” sales. Distributors typically mark up manufacturer sales prices
                      prior to reselling noncontract IVIG directly to customers, such as physicians or hospitals.
                        27 We are defining markup as the difference between how much a distributor pays the
                      manufacturer for IVIG and how much the distributor charges customers for IVIG.



    OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   11
    F   I N D I N G                  S 



Table 4. Contract and Noncontract Sales Prices for IVIG in the Fourth Quarter of 2005
                                                                                                   Percentage of Contract                             Percentage of
IVIG Price Range                                                                                                   Sales                           Noncontract Sales
Below Medicare physician reimbursement                                                                             39.2%                                        1.7%
0.01%–5.00% greater than Medicare physician reimbursement                                                          55.9%                                       24.6%
5.01%–20.00% greater than Medicare physician reimbursement                                                          4.7%                                       40.5%
20.01%–50.00% greater than Medicare physician reimbursement                                                         0.2%                                       24.9%
More than 50.01% greater than Medicare physician reimbursement                                                      0.0%                                         8.3%
Source: IVIG pricing and sales data from distributors.
Note: Totals may not add because of rounding.



                                                                       The majority (57 percent) of
        Most physicians and distributors reported                      responding physicians reported that
        problems with IVIG availability in 2005 and                    they were unable to provide patients
                          the first quarter of 2006                    with adequate amounts of IVIG
                                                                       during the first quarter of 2006.
                                    These physicians stated that problems with IVIG availability were
                                    typically related to Medicare payment.

                                    A small number of responding physicians said that they had stopped
                                    providing IVIG to Medicare beneficiaries altogether. One responding
                                    physician stated that payment issues led him to turn patients away:
                                    “The reimbursement from Medicare does not cover the cost of
                                    medication. We are unable to provide care for new patients.” Another
                                    physician added: “We can no longer treat [Medicare] patients with IVIG
                                    due to losing hundreds of dollars each time.” A third physician cited
                                    supply issues for the inability to treat patients: “Due to insufficient
                                    supply, we are forced to turn away patients requiring IVIG.”

                                    All 13 distributors responding to our January 2006 survey also reported
                                    problems with IVIG availability. One summarized the situation by
                                    stating: “Customers have requested more product, but we are unable to
                                    obtain the extra product needed from the manufacturer.” According to
                                    their responses, none of the distributors were able to fulfill all customer
                                    requests for IVIG, and all distributors have asked manufacturers for
                                    additional product. Most distributors reported that manufacturers were
                                    unable to provide them with additional IVIG.

                                    One important reason distributors are unable to obtain additional IVIG
                                    from manufacturers is that manufacturers are contractually obligated
                                    to fulfill their GPO allocations first, and, when additional product is
                                    available, manufacturers reportedly provide it to GPO members first (at
                                    a noncontract price). Therefore, hospitals and physicians who are not
                                    GPO members do not have the same access to IVIG products.




        OEI-03-05-00404             I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y                  12
F   I N D I N G 
S


                      Manufacturers, distributors, and physicians reported that patients were
                      being shifted from physicians’ offices to hospitals to receive IVIG
                      Manufacturers responded that they received reports in 2005 of some
                      patients being moved from physicians’ offices to hospitals for IVIG
                      treatment because of payment differentials between the settings at that
                      time. Similarly, in responses to our January 2006 survey, a majority of
                      the distributors noted that patients were being moved from physicians’
                      offices to hospitals to receive IVIG treatment because of changes in
                      Medicare’s physician payment amounts. Physicians also noted in their
                      response to our April 2006 survey that an increasing number of patients
                      were receiving IVIG treatment in hospitals. Sixty-one percent of
                      responding physicians indicated that they had sent patients to hospitals
                      for IVIG treatment because of their inability to acquire adequate
                      amounts of IVIG or problems with Medicare payment. The most
                      common explanation for the shift to hospitals was Medicare payment,
                      specifically the inability of physicians to purchase IVIG at prices below
                      the Medicare payment amounts.

                      Distributor sales data support this claim and indicate that hospitals
                      received more IVIG in the fourth quarter of 2005 than in the fourth
                      quarter of 2004, while sales to physicians decreased. At that time,
                      prices to hospitals were generally lower than prices to physicians, while
                      Medicare payment to hospitals for IVIG administered in an outpatient
                      setting was substantially higher than Medicare payment to physicians
                      in 2005.28 In keeping with the payment reforms in the MMA, CMS
                      began paying for most Part B drugs and biologicals administered in
                      hospital outpatient departments based on 106 percent of the
                      manufacturer’s ASP on January 1, 2006.29 Despite the reduction in
                      hospital payments following the change in payment methodology, data
                      from the three largest distributors indicate that total sales to hospitals
                      continued to increase through the first half of 2006.

                      The priority given to GPO contract customers is related to the shift in
                      patients to hospitals, because the GPO market comprises primarily

                         28 In 2005, CMS reimbursed hospitals for outpatient drugs at 83 percent of the AWP.

                      The CMS hospital payment for both powder and liquid IVIG was $80.68 per gram in the
                      fourth quarter of 2005, compared to 56.30 (liquid IVIG) and $43.10 (powder IVIG) for
                      physicians.
                          29 “Medicare Announces Payment Rates and Policy Changes for Hospital Outpatient
                      Services in 2006.” Available online at
                      http://www.cms.hhs.gov/apps/media/press/release.asp?Counter=1711. Accessed
                      April 24, 2006.



    OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   13
F   I N D I N G        S


                      hospitals and nursing homes (although some physicians can purchase
                      IVIG through GPOs). According to distributor data, most hospitals
                      receive IVIG through their GPO memberships and, as previously stated,
                      contract prices are generally lower than noncontract prices. One
                      distributor summarized the potential problems with hospitals acquiring
                      larger portions of available IVIG by stating: “The product [IVIG]
                      allocation is normally based on historical usage data. To meet the new
                      increased demands in the hospital outpatient setting, [the distributor]
                      used noncontract product to meet those needs. This decreased the
                      amount of IVIG available to the noncontract market (e.g., physicians,
                      home care and pharmacies).”




    OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   14
Δ   C O N C L U S I O N                                           





                  Based on the data presented in this report, just over half of IVIG sales
                  to hospitals and physicians were at prices below the Medicare payment
                  amounts in the third quarter of 2006, a substantial increase over
                  previous quarters. Distributors and physicians also reported problems
                  with IVIG availability.

                  The interaction of manufacturer pricing decisions and certain
                  ASP-related issues could partially explain our findings regarding IVIG
                  pricing and availability. For example, the results of this review indicate
                  that the two-quarter lag between manufacturer price increases and
                  corresponding increases in Medicare payment amounts may have
                  played a major role in substantially increasing the percentage of IVIG
                  sales at prices below the Medicare payment amounts in the third
                  quarter of 2006.

                  Because manufacturer price increases for IVIG in early 2006 were not
                  reflected in Medicare reimbursement until the middle of that year,
                  hospitals and physicians were initially being charged more for IVIG
                  without a corresponding increase in payment. If manufacturers were to
                  implement another across-the-board price increase, hospitals and
                  physicians might face issues similar to those that they faced in the first
                  two quarters of 2006.

                  Furthermore, ASPs include manufacturer sales to all classes of trade
                  and do not explicitly include distributor markup, which may cause the
                  actual acquisition cost of IVIG to exceed the Medicare payment amount
                  (especially in a time when increased demand creates incentives for
                  distributors to increase markups on noncontracted sales). In the case of
                  IVIG, the combination of the two-quarter lag and distributor markups
                  could result in a gap between provider acquisition costs and Medicare
                  payment amounts, which could lead providers to shift patients to other
                  sites of service. When this occurs, beneficiaries may have difficulty
                  obtaining treatment in their preferred settings.

                  It is important to note that additional factors, including off-label use,
                  coding, and plasma industry economics, may drive the difficulties with
                  IVIG pricing and availability. Reported recent increases in the use of
                  IVIG for off-label indications may strain the tight supply of this product.
                  Each IVIG product is a unique brand drug, yet Medicare payment is
                  based on a weighted average price of all products. The production of

OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   15
C O   N C L        U S I O            N


                     IVIG requires substantial resources not typically associated with other
                     pharmaceutical products. However, this review did not include an
                     in-depth examination of these factors.


                     AGENCY COMMENTS
                     CMS commented that this report provides initial information on the
                     availability and pricing of IVIG and sets the stage for further review of
                     certain issues (e.g., off-label use, payment lags, and distributor
                     markups) that can bring greater understanding of how the marketplace
                     operates for this unique product. CMS also noted that the time lag is a
                     feature of the ASP system and applies to all Part B drugs and
                     biologicals. CMS stated that the substantial increase in the percentage
                     of IVIG sold to hospitals and physicians at prices below the Medicare
                     payment amounts is an important development and noted that these
                     findings indicate that Medicare payment has adjusted to increases in
                     IVIG market prices over time. CMS stated, “We will carefully consider
                     this report as we continue our dialogue with manufacturers, patient
                     groups, and stakeholders to better understand marketplace
                     developments and issues impacting beneficiary access to quality care.
                     We strongly encourage the OIG to further study some of the issues
                     raised [in CMS’s comments to the draft report].”




 OEI-03-05-00404     I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   16
Δ   A P P E N D I X ~ A                                          



                  DETAILED SCOPE AND METHODOLOGY
                  Detailed Scope
                  We conducted a multiphase review to examine the pricing and
                  availability of intravenous immune globulin (IVIG) from the
                  perspectives of: (1) the manufacturers of IVIG, (2) distributors and
                  group purchasing organizations (GPOs) identified by the manufacturers
                  as involved in the sale and distribution of IVIG, and (3) randomly
                  selected physicians who billed Medicare for IVIG.

                  Manufacturers. We collected data from the five IVIG manufacturers
                  producing IVIG at the time of the survey (December 2005). We did not
                  include the American Red Cross in this study because it announced its
                  exit from the plasma therapeutics business in July 2005.

                  Distributors and group purchasing organizations. Based on information
                  collected from the 5 IVIG manufacturers, we identified 17 distributors
                  and 7 GPOs involved with the sale and distribution of IVIG. We
                  collected data only from distributors and GPOs identified by the
                  manufacturers. IVIG manufacturers identified four additional
                  companies as distributors in their responses to the Office of Inspector
                  General (OIG). We did not include three of these in our analysis
                  because these companies do not consider themselves distributors, as
                  none of them resells IVIG. The fourth company identified itself as a
                  “small independent distributor” and “was not set up to breakout the
                  kind of information [OIG] is requesting.”

                  For the three largest IVIG distributors, we collected sales and pricing
                  data for the first three quarters of 2006. We did not collect any 2006
                  sales and pricing data from smaller distributors, who tend to charge
                  customers more for IVIG.

                  Physicians. We randomly selected physicians who billed Medicare for
                  two IVIG procedure codes during the third quarter of 2005. The
                  procedure codes are: Q9941—injection, immune globulin, intravenous,
                  lyophilized (powder), 1 gram; and Q9943—injection, immune globulin,
                  intravenous, nonlyophilized (liquid), 1 gram. These two codes accounted
                  for the majority of Medicare payment for IVIG during the last three
                  quarters of 2005 (the effective dates of these codes). There were two
                  additional IVIG procedure codes in effect during 2005: Q9942 and
                  Q9944, which were 10-milligram doses of powder and liquid IVIG,
                  respectively. We did not include these two codes in our analysis.


OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   17
A   P   P E N D       I X ~           A


                      Effective January 1, 2006, CMS replaced these four procedure codes
                      with two new codes: J1566 and J1567.
                      Detailed Methodology: Data Sources and Sample
                      Manufacturers. The five manufacturers producing IVIG at the time of
                      the survey (December 2005) provided OIG with 2005 IVIG sales prices
                      and sales volume. In addition, we asked manufacturers to complete a
                      written survey about IVIG access and availability, distribution methods,
                      resale policies, customers, and future production plans.

                      Distributors and GPOs. Manufacturers identified 17 distributors and
                      7 GPOs involved with the sale and distribution of IVIG. Between
                      January and April 2006, 14 distributors and 6 GPOs completed a
                      written survey concerning IVIG. Two of the seventeen distributors
                      submitted survey responses after the deadline for data collection. The
                      remaining distributor and one GPO did not complete the survey or
                      provide sales and pricing data. Based on manufacturer sales data,
                      these nonrespondents made up a very small portion of IVIG sales.

                      Thirteen of these distributors also provided us with their sales prices
                      and sales volume for 2005. The sales volume and pricing data were
                      provided by distributors and include IVIG sales and prices to GPO and
                      non-GPO members.

                      Based on distributor-reported data, we determined that the three
                      largest IVIG distributors accounted for approximately 90 percent of
                      distributor-reported sales in the fourth quarter of 2005. We collected
                      sales and pricing data from these three largest distributors for the first
                      three quarters of 2006.

                      Physicians. We extracted all paid Medicare Part B physician claims for
                      two IVIG procedure codes from CMS’s 2005 National Claims History
                      File with dates of service in the third quarter of 2005 (the most recent
                      claims data available at the time we selected our sample). We
                      summarized the claims by the physician’s Unique Physician
                      Identification Number (UPIN) and profiling identification number.
                      After we summarized third-quarter 2005 claims data by UPIN and
                      profiling identification number, there were 1,111 observations for Q9941
                      and 1,350 observations for Q9943.

                      We then selected a simple random sample of 130 physicians for each of
                      the two procedure codes. OIG investigative concerns prevented us from
                      contacting a small number of physicians; we excluded these physicians
                      from our sample. The final sample contained 129 physicians for


    OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   18
A   P   P E N D       I X ~           A


                      procedure code Q9941 and 126 physicians for procedure code Q9943, for
                      a total of 255 physicians.

                      In April 2006, we sent written surveys on pricing and availability to the
                      255 randomly selected physicians in our sample. We asked physicians
                      how much they paid for IVIG during the first quarter of 2006, taking
                      into account all discounts and rebates. We asked physicians to submit
                      invoices to document all IVIG purchases. We also asked physicians how
                      available and accessible IVIG is, what happens when they are unable to
                      provide patients with adequate amounts of IVIG, and from what sources
                      they purchase IVIG products.
                      Between May and August 2006, 157 physicians (62 percent) responded
                      to our written survey and 100 physicians (39 percent) provided their
                      purchase volume and acquisition costs for IVIG. Some respondents
                      reported IVIG purchases and purchase prices for individual physicians
                      in our sample, while others provided IVIG purchases and prices for
                      physicians’ group practices. We could not identify fundamental
                      differences between responding and nonresponding physicians.
                      Data Analysis: Pricing and Sales Data From 2006
                      Distributors. We examined sales and pricing data for the first three
                      quarters of 2006 from the three largest IVIG distributors. We
                      calculated the percentage of IVIG sales to hospitals and physicians at
                      prices above and below the Medicare payment amounts and identified
                      trends in IVIG availability related to increases in IVIG purchase prices
                      and Medicare payment.

                      Physicians. Based on the information provided by the responding
                      physicians, we calculated the percentage of IVIG purchased by
                      responding physicians at prices above and below the first-quarter 2006
                      Medicare physician payment amounts, which were based on average
                      sales prices reflecting manufacturer sales from July through September
                      2005. For this analysis, we compared physician-reported prices that
                      take into account discounts and rebates with the Medicare physician
                      payment amounts. We also determined the percentage of IVIG
                      purchased by physicians that was subject to discounts and rebates. We
                      examined physician responses to our survey to identify what product
                      availability issues exist, what concerns physicians have about Medicare
                      payment, from what sources physicians purchase IVIG products, how
                      physicians use IVIG, and any other specified issues.




    OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   19
A   P   P E N D       I X ~           A


                      Pricing and Sales Data From 2005
                      Manufacturers. Based on the information provided by the five
                      manufacturers, we identified the amount of IVIG sold in 2005 to each
                      type of customer (e.g., distributor, GPO member, direct customer, and
                      home care company). In addition, we analyzed manufacturer responses
                      to questions about IVIG access and availability, distribution methods,
                      resale policies, customers, future prices, and future production plans.

                      Distributors and GPOs. We identified the amount of IVIG sold in the
                      fourth quarter of 2005 to each type of customer (e.g., hospital, physician,
                      clinic, home care company, etc.). For sales to hospitals, we determined
                      the percentage of IVIG sold at prices above and below both the Medicare
                      outpatient hospital payment amount and the Medicare physician
                      payment amount for the fourth quarter of 2005. We also calculated the
                      percentage of sales to hospitals and physicians at contract and
                      noncontract prices. For physicians, sales prices were compared only to
                      the fourth-quarter 2005 physician payment amounts.

                      We identified the amount of IVIG sold in the fourth quarter of 2005 at
                      contract and noncontract prices, regardless of customer type. For the
                      purposes of this review, IVIG sales to GPO members at the contract
                      prices by distributors are considered “contract” (encumbered) sales.
                      One distributor that works extensively with GPO members summarized
                      the relationship in the following way: “The GPO sends [distributor] the
                      allocation spreadsheets that list their members along with the IVIG
                      allotment that is agreed upon between the provider and the GPO . . .
                      The GPO members call to order their IVIG and [the distributor] ships
                      product to the GPO members based on the allocation spreadsheets.”

                      Not all sales by distributors are subject to GPO contracts. In contrast to
                      the contract sales described above, sales of IVIG that distributors
                      independently resell to providers are considered “noncontract”
                      (unencumbered) sales. Distributors typically markup manufacturer
                      sales prices prior to reselling noncontract IVIG directly to customers,
                      such as physicians or pharmacies. Each manufacturer allows
                      distributors to sell a portion of their IVIG at noncontract prices.

                      We also examined distributor and GPO responses to the pricing and
                      availability survey to identify distribution methods, manufacturer
                      relationships, resale policies, product availability, pricing, and other
                      specified issues.




    OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   20
Δ   A P P E N D I X ~ B


     Agency Comments




OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   21
A   P   P E N D       I X            ~           B




    OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   22
A   P   P E N D       I X            ~           B




    OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   23
Δ   A C K N O W L E D G M E N T S                                                                           




                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director, Prescription Drug Pricing
                  Unit.

                  Edward K. Burley served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to this report include
                  Roman Strakovsky and Kriti Sehgal; other central office staff who
                  contributed include Linda B. Abbott, Scott Horning, and Barbara
                  Tedesco.




OEI-03-05-00404   I N T R AV E N O U S I M M U N E G L O B U L I N : M E D I C A R E PAY M E N T   AND   AVA I L A B I L I T Y   24
